     LEGAL SERVICES CORPORATION




                 America’s Partner For
                 Equal Justice




SEMIANNUAL REPORTS TO THE CONGRESS

FROM THE OFFICE OF INSPECTOR GENERAL

      & THE BOARD OF DIRECTORS

            FOR THE PERIOD

   APRIL 1, 2005 – SEPTEMBER 30, 2005


                        NOVEMBER 30, 2005
                                       PREFACE

       As required by the Inspector General Act, I am pleased to transmit the
Semiannual Reports (“SAR”) to the Congress from the Legal Services Corporation
(“LSC”) Office of the Inspector General (“OIG”) and from the Board of Directors.


       The OIG continues to assist the Corporation by auditing LSC functions and
investigating concerns regarding fraud, waste, and abuse. As indicated in Table III
of the OIG’s report, I am pleased to note that the OIG reports no significant
problems, abuses, or deficiencies, no instances where information was refused, and
no significant management decisions with which the Inspector General disagrees. I
am also pleased to report that LSC management has responded positively to every
recommendation made by the OIG during this reporting period.


       The past six months have seen significant activity by LSC. We initiated a
new Loan Repayment Assistance Program to assist legal aid programs with the
recruitment and retention of staff; began a pilot mentoring program to help develop
a new generation of legal services leadership; researched and issued a major report
entitled Documenting the Justice Gap in America; completed our fifth round of
technology initiative grants; and continued with the ongoing work of assisting 140
legal services grantees around the country and monitoring their compliance with
rules and regulations.


       The Board continues to have some differences of opinion with the OIG
regarding several of the matters reported in the SAR. In particular, with respect to
the lease of the building at 3333 K Street, the Board believes the OIG’s statements
regarding the Landlord Build-Out Allowance are inaccurate in two respects: they
wrongly report that LSC paid for items that should have been paid for with
leasehold improvement funds, and they mistakenly state that the landlord wrongly
charged a substantial amount to LSC’s build-out allowance. In addition, the Board
is concerned about the OIG’s estimates of excess space costs and about the OIG’s
assessment of the financial implications of the lease.        In June, the House


                                            i
Subcommittee on Commercial and Administrative Law held a hearing regarding
the lease. At that hearing, Chairman Chris Cannon raised issues regarding LSC’s
interest in the ownership of the building and about the relationship between LSC
and Friends of LSC, which owns it. We are continuing to address the concerns
raised by the Chairman and to ensure LSC’s ultimate ownership of the building.


       Indeed, with respect to each of the important issues mentioned above, and
with the hope and expectation that by doing so we will be able to maintain our
focus on achieving LSC’s central mission of providing access to justice for
indigent persons, the Board is committed to working in a cooperative spirit with
the OIG to resolve our disagreements.


       Finally, the Board notes that Management disagrees with the OIG’s
interpretation of the Trafficking Victims Protection Act. The Board believes that
Management’s interpretation of the Act is both defensible and plausible in view of
the Act’s purposes.


       The Board recognizes and appreciates that, during the past three months,
the Board and the OIG have made efforts to improve their working relationship and
the OIG’s working relationship with the Corporation. We welcome this progress
and look forward to further improvement.




                                            Frank B. Strickland
                                            Chairman of the Board
                                            Legal Services Corporation




                                           ii
TABLE OF CONTENTS

    I.    Semiannual Report of the Office of Inspector General ...............................1

    II.   Semiannual Report of the Board of Directors............................................23




                                            iii
Legal Services Corporation
            Office of
     Inspector General




Semiannual Report to the Congress
 April 1, 2005 – September 30, 2005

           www.oig.lsc.gov
                      TO THE BOARD OF DIRECTORS
               OF THE LEGAL SERVICES CORPORATION (LSC)
                                 AND
                     THE UNITED STATES CONGRESS
               A MESSAGE FROM THE INSPECTOR GENERAL


This is my third report since becoming Inspector General. I am pleased with the
support the Office of Inspector General (OIG) has received from Congress and
others in our effort to be independent-minded and to ensure that taxpayer dollars
deliver maximum results. I am confident that as LSC responds to OIG
recommendations to improve programs and operations, its stakeholders will have
the trust and confidence they need to continue their support.

During this period LSC’s congressional oversight subcommittee held a hearing
regarding the OIG’s report on the Financial Implications of the Lease at 3333 K
Street. In that report, the OIG concluded LSC was leasing headquarters office
space at unfavorable rates from its landlord, an organization established by LSC
officials. Because of the difficulties arising out of the OIG’s lease review, the
Board of Directors subsequently was asked by LSC’s oversight committees in the
House of Representatives to work on improving relations between the Board and
the OIG. Since then, the Board has stated it would address congressional
concerns regarding the lease and its relations with the OIG. By April 2006, when
the next semiannual report is published, I hope to report that progress continues to
be made on both of these issues.

To keep our stakeholders informed, twice a year as required by law, the OIG
submits this report to the Board of Directors, the agency head of LSC, for
transmittal to the Senate and House of Representatives. In addition, throughout
the year we keep Congress and the Board of Directors fully and currently informed
by meeting with them and responding to their inquiries. In my statutory role as an
independent Inspector General, it is my job to ensure that the Board of Directors
and Congress have accurate, complete and timely information that fairly and
objectively describes the condition of LSC programs and operations.

This Semiannual Report sets forth the significant activities and accomplishments
of this office from April 1, 2005 through September 30, 2005. It details our efforts
to oversee the system for routine monitoring of compliance with the restrictions on
the use of LSC funds by grantees. It also reports our efforts to improve the
effectiveness and efficiency of LSC. In this reporting period, the OIG issued four
audit reports. We also opened 10 new investigations and closed eight
investigations with one referral for prosecution.

I will continue to keep the Board of Directors and Congress fully and currently
informed. I appreciate the support and interest expressed by Representatives
Frank Wolf and Chris Cannon as well as members of their staffs. I also would
like to thank Chairman Frank Strickland and the Board of Directors for its
expressed willingness to improve working relations with the OIG, and President
Helaine Barnett and her senior staff for continuing to work cooperatively to
address mutual concerns. In particular, I would like to acknowledge Karen
Sarjeant, Vice President for Programs and Compliance, and Charles Jeffress,
Chief Administrative Officer, who joined LSC during this reporting period and who
have helped the OIG work with LSC management to improve its programs and
operations. Finally, I would like to welcome two new members to the Board of
Directors—Mr. Thomas Fuentes and Ms. Bernice Phillips. I am committed to
working cooperatively and building an effective relationship with the Board,
Congress, LSC management and other LSC stakeholders.

Sincerely,



Kirt West
Inspector General
September 30, 2005
                                                                                 April 1, 2005 – September 30, 2005



                                       TABLE OF CONTENTS

OFFICE OF INSPECTOR GENERAL OVERVIEW...............................................1

  AUDITS .............................................................................................................4

  OTHER REVIEWS ............................................................................................8

  INVESTIGATIONS ..........................................................................................10

  LEGAL REVIEWS ...........................................................................................13

  MAPPING PROJECT ......................................................................................16

LIST OF AUDIT REPORTS ISSUED ..................................................................17

  TABLE I - Audit Reports Issued with Questioned Costs for
  the Period Ending September 30, 2005 ..........................................................18

  TABLE II - Audit Reports Issued with Funds to Be Put to Better Use for
  the Period Ending September 30, 2005 ..........................................................19

  TABLE III - Index to Reporting Requirements of the
  Inspector General............................................................................................20
                                                        April 1, 2005 – September 30, 2005



           OFFICE OF INSPECTOR GENERAL OVERVIEW


The LSC Office of Inspector General operates under the Inspector General Act of
1978, 5 U.S.C. app. 3. In 1988, Congress amended the IG Act and required LSC
and about 30 other mostly smaller, federally funded entities to establish
independent Offices of Inspector General.

The OIG has two principal missions: to assist management in identifying ways to
promote efficiency and effectiveness in the activities and operations of LSC and
its grantees; and to prevent and detect fraud and abuse. Thus, the OIG assists
management in fostering, and overcoming obstacles to, good program
management and in preventing future problems; and it must identify and report
on current problems.
The OIG's primary tool for achieving these missions is fact-finding through
financial, performance and other types of audits, evaluations and reviews, as well
as investigations into allegations of wrongdoing. Its fact-finding activities enable
the OIG to develop recommendations to LSC and grantee management for
actions or changes that will correct problems, better safeguard the integrity of
funds, and improve procedures or otherwise increase efficiency or effectiveness.
The OIG is also tasked with ensuring the quality of audits of LSC and its grantees
that are conducted by independent public accountants, and with reviewing
proposed and existing regulations and legislation affecting the operations and
activities of LSC and the programs it funds.
In addition to the missions shared by all OIGs, Congress, starting with LSC's
FY96 appropriation, directed that an additional tool for monitoring grantee
compliance with legal requirements is to be the annual grantee audits conducted
by independent public accountants under guidance developed by the OIG, thus
adding participation in monitoring compliance to the role of the OIG. In addition,
Congress specified the OIG’s authority to conduct its own reviews of grantee
compliance.
The OIG is headed by the Inspector General who reports to and is under the
general supervision of the LSC Board of Directors. The IG has broad authority to
manage the OIG, including setting OIG priorities and activities, and to hire OIG
personnel, consultants and experts.
To ensure the objectivity of the IG, the IG Act grants the LSC IG the
independence to determine what reviews are performed; to gain access to all
documents needed for OIG reviews; to publish findings and recommendations
based on OIG reviews; and to report OIG findings and recommendations to the
LSC Board of Directors and to Congress. The IG Act also prohibits LSC from
assigning to its IG any of LSC’s own "program operating responsibilities." This
means that the OIG does not perform functions assigned to LSC by the Legal


                                         1
                                                          April 1, 2005 – September 30, 2005



Services Corporation Act, 42 U.S.C. §2996-2996l, other than those transferred to
the OIG under the IG Act, and those otherwise assigned by Congress, for
example in the FY 1996 Appropriations Act.
The IG must report serious problems to the LSC Board of Directors and must
also report to appropriate law enforcement authorities, when through audit,
investigation or otherwise, the IG has found that there are reasonable grounds to
believe that a crime has occurred. The OIG is not an "arm" of the Congress, as
is the Comptroller General, but is required by law to keep the Congress informed
through semiannual reports and other means. The IG also provides periodic
reports to the Board and management of LSC and occasionally to the Boards of
Directors and management of LSC grantees. Some of these reports will be
specific (e.g., an audit of a particular grantee or an investigation of a theft), while
others will be of more general interest to management.
Although the OIG is not a part of LSC management, it also is not an adversary of
LSC management. To be effective, the OIG works cooperatively with the Board
and management, seeks their input prior to choosing topics for OIG review, and
keeps them informed of OIG activities. Within their different statutory roles, the
OIG and management of LSC share a common commitment to improving the
federal legal services program and increasing the availability of legal services to
the poor.


IDENTIFYING MAJOR MANAGEMENT CHALLENGES

In our last report, we identified that one of our goals for the upcoming reporting
period would be to work with LSC management to identify major challenges and
obstacles faced by LSC. We explained that over the years, most OIGs have
reported these issues to their agency heads and Congress to alert them to the
challenges facing their agencies. Even though the law does not specifically
apply to LSC it is a good business practice for the OIG to inform the Board of
major management challenges.

Since our last report, LSC management is in the process of developing its draft
Strategic Directions 2006-2010 document. Considering this fact and the impact
LSC strategic planning will have on the identification of major management
challenges by the OIG, we are delaying identifying challenges until the Strategic
Directions document is finalized.

STRATEGIC PLANNING AND RISK ASSESSMENT

The OIG is also conducting its own strategic planning process to expand the OIG
planning horizon from 2006 through 2010 and incorporate the Government
Performance and Results Act, the President’s Management Agenda and High
Performing Organization principles. As part of that effort, we held a meeting of
all OIG staff to conduct a risk assessment.


                                          2
                                                         April 1, 2005 – September 30, 2005




The assessment attempted to capture all significant risks to LSC and grantee
programs and activities that expose assets to fraud, waste, abuse and
mismanagement including the potential that operations might not be performed
as economically, efficiently or effectively as possible. We identified risks that are
still valid from prior OIG assessments, as well as new risks, including human
capital, financial management, and several other areas.

The OIG expects to align our plan with LSC’s new strategic plan so our work will
assist the Board, Congress and LSC management in achieving organizational
goals.




                                         3
                                                      April 1, 2005 – September 30, 2005



                                  AUDITS

LANDLORD BUILD OUT ALLOWANCE FOR LSC HEADQUARTERS SPACE

As a result of the OIG’s review of LSC’s lease at 3333 K Street, the OIG
conducted a limited scope review of the accounting of the up to $2 million
landlord tenant improvement allowance LSC was supposed to receive pursuant
to its lease with the Friends of Legal Services Corporation.

The OIG was unable to determine how much of the up to $2 million of build out
funds had been used by LSC because LSC did not have adequate accounting
records and documentation for its leasehold improvement expenses. The OIG
was able to determine that LSC may have paid approximately $200,000 for items
that should have been paid for with the leasehold improvement funds. Also,
records indicated that almost $400,000 charged by the landlord to LSC’s
allowance of up to $2 million may not have been LSC leasehold improvements.

The OIG recommended that LSC obtain from the landlord a full and detailed
accounting of all costs associated with the leasehold improvements, conduct a
detailed analysis of the accounting, and recoup from the landlord any payments
made by LSC that should have been paid using the leasehold improvement
allowance. At the end of the reporting period, LSC outlined the actions taken to
close out OIG recommendations, and the OIG will evaluate the proposed actions
to determine if they are sufficient to close out the recommendations.

LSC’S HEADQUARTERS OFFICE SPACE NEEDS

The OIG found that because a space needs assessment was not performed
before entering into a 10-year lease, LSC did not know how much space was
needed to accomplish its mission. Therefore, LSC may be renting significantly
more space than is needed. Using the General Services Administration (GSA)
guidelines for a typical government organization, LSC may be overpaying for its
space needs by as much as $7 million over LSC’s 10-year lease. However, until
a space study has been completed to determine actual space needs, the actual
amount of overpayment, if any, can not be determined.

Our report recommended that LSC management commission a space needs
study to be conducted in a manner similar to that contained in the GSA
guidelines. Should the space needs study indicate that LSC has excess space,
LSC should sublease the space in a manner that reduces LSC’s overall rent
costs. Although LSC management disagreed with our analysis, they generally
agreed to implement the recommendations. During the course of our audit, LSC
took a positive step by subleasing 2,139 square feet of space on the first floor.
The OIG will continue to track these significant recommendations until resolved.




                                       4
                                                         April 1, 2005 – September 30, 2005



AUDIT SERVICE REVIEWS (ASRs)

The OIG is responsible for the oversight of the Independent Public Accountants
(IPAs) who are selected by the grantees to perform annual audits, which among
other things report whether the grantees comply with LSC regulations. To fulfill
this oversight responsibility, the OIG conducts ASRs which are reviews of the
audit documentation of selected IPAs to determine whether they adequately
tested the grantee’s compliance with LSC regulations.

The OIG is currently conducting a series of 14 ASRs in 2005 using OIG staff
instead of contractors. Our work to date has indicated that many more ASRs
need to be performed on an annual basis by the OIG in order to ensure that IPA
work is meeting Congressional requirements and serving LSC and grantee
needs. In addition to ensuring that the compliance work of the grantees’ IPAs is
complete and meets standards, we are assessing the entire review process and
the Compliance Supplement guidance provided by the OIG for use by the IPAs.
Based on this assessment, we will make necessary changes to the overall
program in order to provide greater assurance of grantee compliance. Field work
for 10 of the 14 reviews was completed during this reporting period. The
remaining four visits are scheduled for early next quarter. Reports on the results
of the 14 ASRs and modifications to the Compliance Supplement will be issued
next period.

FY 2004 LSC CORPORATE AUDIT

The OIG transmitted the FY 2004 Financial Statement Audit Report to the LSC
Board of Directors. The audit was conducted by an independent certified public
accounting firm and was performed in accordance with generally accepted
auditing standards, as well as the standards applicable to financial audits
contained in the Government Auditing Standards issued by the Comptroller
General of the Unites States.

The Independent Auditor’s Report stated that LSC’s financial statements present
fairly, in all material respects, the financial position of LSC as of September 30,
2004 and September 30, 2003 and the results of its operations and changes in
its fund balance for the years then ended, were in conformity with generally
accepted accounting principles.           The Independent Auditor’s Report on
Compliance and Internal Control disclosed no instances of noncompliance that
are required to be reported under Government Auditing Standards. This Report
also noted no matters involving the internal control over financial reporting and its
operation that were considered to be material weaknesses.

The OIG reviewed the Independent Auditor’s Report and related audit
documentation and inquired of their representatives. Our review disclosed no
instances in which the Independent Auditor’s Report did not comply, in all
material respects, with generally accepted government auditing standards.



                                         5
                                                   April 1, 2005 – September 30, 2005




LSC OIG PEER REVIEW OF EEOC OIG

In accordance with the same standards and guidelines mentioned above, the
LSC OIG conducted a peer review of the Equal Employment Opportunity
Commission’s OIG. LSC OIG auditors reviewed a sample of EEOC OIG reports,
issued a draft report for comment by EEOC OIG management, and issued a final
peer review report during this reporting period.




                                     6
                                                April 1, 2005 – September 30, 2005



Audit Reports


     Open at beginning of reporting period                                      2


     Issued during reporting period                                             4


     Closed during reporting period                                             3


     Open at end of reporting period                                            3


Recommendations to LSC Grantees


     Pending at beginning of reporting period                                   0


     Issued during reporting period                                             0


     Closed during reporting period                                             0


     Pending at end of reporting period                                         0


Recommendations to LSC Management


     Pending at beginning of reporting period                                   0


     Issued during reporting period                                           10


     Closed during reporting period                                             0


     Pending at end of reporting period                                       10




                                       7
                                                       April 1, 2005 – September 30, 2005



                              OTHER REVIEWS


FINANCIAL IMPLICATIONS OF LSC’S HEADQUARTERS LEASE

After hearing concerns from Congress and OIG staff as well as members of LSC
management, the OIG conducted a review of the financial implications of the
3333 K Street lease for LSC headquarters that was entered into in 2002 for a 10-
year period beginning in June 2003. Two independent appraisals assessed the
lease as well as information on other costs related to the lease at, and the move
to 3333 K Street from LSC’s previous location. The purpose of the report was to
provide information to assist the LSC Board in determining any future actions
regarding LSC’s headquarters lease.

Based on the two appraisals, the OIG calculated LSC will overpay between
$1.23 million and $1.89 million in rent over a 10-year period as a result of paying
above market rent. Based on information provided by the appraisers, the OIG
also calculated that LSC could have saved at least $680,000 over this 10-year
period by remaining in its existing space. Also, LSC would not have incurred
$440,000 in costs associated with the move. In addition, the OIG calculated that
LSC may be due a rent credit because it was charged for 45,000 square feet
when it only occupied 42,852 square feet from June 2003 until late 2004. The
LSC Board by unanimous vote has twice disagreed with OIG’s report on the
lease.

SAFETY AND SECURITY REVIEW

The OIG is currently working on a Safety and Security Review of LSC
headquarters. As part of this review, three safety concerns were identified and
forwarded to LSC management for corrective action. Two of the three concerns
were corrected by the landlord at LSC’s request. The third issue is pending
corrective action.

AMTRAK PEER REVIEW OF LSC OIG

Amtrak’s OIG conducted a peer review of the OIG. Amtrak OIG conducted the
review in accordance with standards and guidelines established by the
President’s Council on Integrity and Efficiency (PCIE). The peer review tested
compliance with the OIG’s system of quality control and included a review of OIG
audits.




                                        8
                                                       April 1, 2005 – September 30, 2005



In the Amtrak OIG’s opinion, the system of quality control in effect for the period
covered, October 1, 2003, through September 30, 2004, was designed in
accordance with the quality standards established by the PCIE and was being
complied with for that year and provided the OIG with reasonable assurance of
material compliance with professional auditing standards in the conduct of its
audits. Based on the peer review, the Amtrak OIG issued the OIG an unqualified
opinion on our system of audit quality control.




                                        9
                                                         April 1, 2005 – September 30, 2005



                               INVESTIGATIONS

The OIG opened ten investigations during the reporting period. There are six
cases that involve theft of funds or property; three embezzlement cases; and one
investigative project to review grantee financial risk.

During this period, the OIG opened a loss prevention initiative to review financial
vulnerability of LSC grantee operations. Based on information gained from the
Hotline, the Independent Public Accountant financial reports, and other sources
of referrals, the OIG will conduct a limited field review to ensure adequate
safeguards and internal controls are in place to prevent criminal activities.

There were six cases that pertain to theft of funds or property from LSC grantee
locations. The OIG opened and closed five of these investigations. One
investigation is pending criminal prosecution. On this case it was determined
that a building cleaning service employee provided access to the perpetrator who
stole cash left by a client for deposit in the client trust funds. The perpetrator was
arrested by local authorities and is awaiting trial.

During this reporting period, on a previously reported embezzlement
investigation, two local jurisdiction search warrants and a warrant for the
subject’s arrest were issued. The subject fled to another state where an arrest
was made pursuant to the warrant. The subject is now awaiting trial.

Operationally, OIG investigations issued and served four Inspector General (IG)
subpoenas in conjunction with an embezzlement investigation.

During this period, the OIG hired a new investigator. To better acclimate the new
investigator into the Inspector General environment, the investigator attended
two training courses at the Inspector General’s Academy

The OIG maintains a Hotline for reporting illegal or improper activities by LSC
grantees or corporate staff. For this reporting period, the OIG received 14
Hotline contacts. Six were referred to LSC for follow-up. The OIG Hotline also
received two calls from victims of Hurricane Katrina, which affected phone
service and closed local LSC-funded legal aid offices. Shortly after Katrina
struck, OIG investigators, who monitor the Hotline, were able to provide the
callers with information directing them to available legal services.

FRAUD ALERT DISTRIBUTED TO GRANTEES

During this reporting period the Inspector General issued a fraud alert to all
grantee Executive Directors on measures to detect and prevent losses from
internal thefts. The guidance, which included concrete steps, was issued after
receiving feedback from LSC grantees and with the realization that the median


                                         10
                                                        April 1, 2005 – September 30, 2005



loss due to fraud for not-for-profit organizations is as great as for public
companies, and that consequently small, not-for-profit organizations like LSC
grantees risk suffering disproportionately large losses if fraud goes undetected.
We have received positive responses on the guidance and will continue
aggressively investigating allegations of fraud as well as the effective expenditure
of LSC funds.




                                        11
                                              April 1, 2005 – September 30, 2005




Investigative Cases


      Open at beginning of reporting period                  6


      Opened during reporting period                       10


      Closed during reporting period                         8


      Open at end of reporting period                        8


Prosecutorial Activities


      Referred for prosecution                               1


      Accepted for prosecution                               1


      Declined for prosecution                               0


      Arrests                                                1


      Pending                                                1


      Convictions                                            0


Investigative Activities


      Inspector General subpoenas issued                     4




                                        12
                                                         April 1, 2005 – September 30, 2005



                           LEGAL REVIEWS


Pursuant to the IG’s statutory responsibilities, the OIG reviewed and, where
appropriate, commented on statutory and regulatory provisions affecting LSC
and/or the OIG as well as LSC interpretive guidance and its internal policies and
procedures.

REGULATION: 45 CFR PART 1611, FINANCIAL ELIGIBILITY

In our last report, the OIG reported on its written comments to proposed revisions
to LSC’s regulation governing financial eligibility, 45 CFR Part 1611. During the
current period, on April 1, 2005, the Operations and Regulations Committee held
a meeting at which it considered the financial eligibility regulation. The OIG
provided oral comments to the Committee, which while not agreeing with all of
the OIG’s comments, addressed some of them by changes to the regulatory text
and/or the supplemental guidance that accompanied publication of the
regulation.

Group representation:

The OIG commented that the regulation should provide eligibility criteria sufficient
to ensure that groups qualify for LSC funded legal assistance, and should require
grantees to retain adequate documentation of group eligibility. The regulatory
language under consideration at the April meeting set as the standard for group
financial eligibility the requirement that the group “provide[] information showing
that it lacks, and has no practical means of obtaining funds to retain private
counsel,” and then required merely that grantees collect information that
“reasonably demonstrates” that the group meets this criteria. The LSC Act,
however, requires that eligibility be predicated on more than the general inability
to afford an attorney. Thus, in the OIG’s view, LSC must provide eligibility
standards and guidelines for group representation more specific than a general
inability to afford counsel. In addition, the OIG expressed concern that the lack
of specific criteria in combination with the undefined notion of reasonableness
with regard to required documentation of eligibility did not provide guidance to
grantees sufficient to ensure that only financially eligible groups would be
represented.

The Operations and Regulations Committee considered these concerns and
directed that language be added to the regulation to require that grantees review
information concerning a group’s income and assets when making an eligibility
determination. The Committee found that membership groups, that is groups
composed primarily of individuals qualified for LSC funded assistance, could
present a difficult situation because for such groups eligibility is predicated not on
the group’s income and assets but that of the individual members. The
Committee decided not to require a comprehensive eligibility determination of


                                         13
                                                         April 1, 2005 – September 30, 2005



each individual group member, finding this prohibitively burdensome, but
ultimately approved language predicating eligibility on consideration of financial
or other socioeconomic characteristics of group members or those served by the
group.

The OIG expressed concern with the expansion of group representation to permit
not only the representation of groups primarily composed of eligible clients, but
the representation of groups that have as a principal activity the delivery of
services to those who would be financially eligible for LSC funded services. The
OIG found this problematic because in its view, neither the LSC Act itself nor its
legislative history endorse the premise that LSC may permit representation of
groups that are not composed of eligible clients. The Committee disagreed, but
decided to include language in the supplemental guidance to accompany the
regulation intended to make clear that it is not LSC’s intent in expanding group
representation to permit grantees to circumvent the LSC restrictions, including
the restriction on participation in class action cases.

The Committee directed staff to publish the proposed regulation for comment and
after considering public comment, recommended the Board’s adoption of the
regulation. The Board adopted the Committee’s recommendation and the
revised regulation become final on September 7, 2005.

ELIGIBILITY OF TRAFFICKING VICTIMS UNDER THE TRAFFICKING
VICTIMS PROTECTION ACT (TVPA)

The OIG provided written comment to LSC management regarding LSC’s draft
program letter regarding the eligibility of trafficking victims under the Trafficking
Victims Protection Act (TVPA). The program letter authorizes LSC grantees to
provide assistance to persons who have not yet received certification under the
TVPA. Under the program letter, grantees may provide assistance with
achieving certification and may provide the full range of legal services to persons
who have not yet received certification, even though certification is a prerequisite
to receiving benefits such as LSC-funded legal services. As such, in the OIG’s
view, the program letter allows representation of ineligible aliens in violation of
section 504(a)(11) of LSC’s 1996 Appropriations Act. We so advised LSC
management and additionally advised LSC management to consider seeking
specific congressional authorization, especially in light of the pending
reauthorization of the TVPA.

REVISIONS TO ABA STANDARDS FOR PROVIDERS OF CIVIL LEGAL
ASSISTANCE TO THE POOR

The American Bar Association (ABA) has established standards that are
intended to provide guidance to organizations that provide legal assistance to the
poor by addressing issues that arise in the context of the competing demands for
high quality legal work, efficiently produced within available resources. The OIG



                                         14
                                                       April 1, 2005 – September 30, 2005



is particularly interested in the revisions being made by the ABA’s Standing
Committee on Legal Aid and Indigent Defendants (SCLAID) to the Standards for
Providers of Civil Legal Assistance to the Poor. Because LSC has incorporated
these standards into its competition process as one of the selection criteria, the
OIG believes that we should comment on the revisions as part of the OIG’s
statutory responsibility to comment on existing and proposed regulations. The
OIG has been in contact with representatives from SCLAID and advised them
that the OIG intends to comment on the revisions, which are expected to be
finalized at the ABA’s mid-year meeting in early 2006.




                                       15
                                                       April 1, 2005 – September 30, 2005



                            MAPPING PROJECT

As I reported in greater detail in previous semiannual reports, the OIG has been
evaluating the utility of mapping to support the management of legal services
delivery to the LSC eligible population, as part of our mission to promote
efficiency and effectiveness in the activities and operations of LSC and its
grantees. The OIG is in the concluding phase of this evaluation and has begun
to transfer all project assets to LSC management and will issue a summary
report. The OIG will be recommending that LSC increase the availability of
mapping to its grantees and further develop legal services mapping to support
LSC functions.

This project identified, prototyped, and assessed the maps and census poverty
information that are valuable to legal services decision-makers, in both urban and
rural settings in Southern California, Georgia and Montana. The maps visualize
the distribution and changes of the poverty populations over time. They compare
the potential legal services client base to legal services delivered at various
scales to give macro and micro-level views on access to legal services to low-
income individuals from a geographic perspective. The evaluation’s evidence
supports that maps offer a visual model of the legal services environment that
assists in planning, resource and performance management and program
promotion.

The project was structured to allow for further development, replication and
deployment by LSC and/or the LSC grantees. Highlights of the evaluation’s
second phase, which include interim results, resources developed and technical
best practices are posted on the OIG Evaluation of Legal Service Mapping
website at: http://www.oig.lsc.gov/mapping/mapping.htm.

The OIG commissioned an assessment of our project by James W. Meeker J.D.,
Ph.D., of the University of California, Irvine. Dr. Meeker recently completed the
assessment in his paper, Utilizing GIS to Study Legal Needs Issues: an Analysis
of the LSC OIG Southern California Mapping Project. Dr. Meeker introduced his
paper as “an evaluation of an innovative effort by the Office of the Inspector
General (OIG) of the Legal Services Corporation (LSC) to explore the utility of
using Geographic Information Systems (GIS) (“mapping”) to analyze the
distribution of services for five legal service providers in Southern California.…”
Dr. Meeker’s paper points out that the application of GIS to analyze the delivery
of legal services to the poor is a fairly new application; that many in the legal
services community are unaware of both the strengths and weaknesses of this
analytical approach; and that one of the major purposes of this project is to
increase this awareness. The report, which can be found at the Evaluation’s
website, is another part of the process of the OIG concluding this work and
transferring the project to LSC management.




                                        16
                                                               April 1, 2005 – September 30, 2005



                       AUDIT REPORTS ISSUED
                    for the Period Ending September 30, 2005

     Title                                                           Date Issued

1.   Peer Review of EEOC’s Office of Inspector General’s Audit       April 12, 2005
     Program

2.   FY 2004 LSC Corporate Audit                                     April 20, 2005
     (Conducted by an independent public accounting firm)

3.   Landlord Build Out Allowance for LSC Headquarters Space         June 13, 2005

4.   LSC’s Headquarters Office Space Needs                           September 28, 2005




                                             17
                                                                   April 1, 2005 – September 30, 2005



                                            TABLE I
                      Audit Reports Issued with Questioned Costs
                      for the Period Ending September 30, 2005

   No reports that questioned costs were issued this reporting period.


                                                         NUMBER
                                                           OF        QUESTIONED      UNSUPPORTED
                                                         REPORTS       COSTS            COSTS

A. For which no management decision has been made           0             $0                $0
        by the commencement of the reporting
        period.

B. Reports issued during the reporting period               0             $0                $0

         Subtotals (A + B)                                  0             $0                $0

LESS:

C. For which a management decision was made during          0             $0                $0
        the reporting period:

         (i) dollar value of recommendations that were      0             $0                $0
              agreed to by management

        (ii) dollar value of recommendations that were      0             $0                $0
              not agreed to by management

D. For which no management decision had been made           0             $0                $0
        by the end of the reporting period

E. Reports for which no management decision had             0             $0                $0
been made within six months of issuance




                                                18
                                                                       April 1, 2005 – September 30, 2005




                                             TABLE II
                    Audit Reports Issued with Funds to Be Put to Better Use
                           for the Period Ending September 30, 2005



                                                                                      NUMBER OF              DOLLAR
                                                                                       REPORTS               VALUE

 A. For which no management decision has been made by the commencement                     0                    $0
         of the reporting period.


 B. Reports issued during the reporting period                                             2                $5,640,400*


          Subtotals (A + B)
 LESS:

 C. For which a management decision was made during the reporting period:                  0                    $0*

          (i) dollar value of recommendations that were agreed to by                       0                    $0
               management
          (ii) dollar value of recommendations that were not agreed to by                  0                    $0*
                    management

 D. For which no management decision had been made by the end of the                       2                $5,640,400*
         reporting period


     Reports for which no management decision had been made within six                     0                    $0
     months of issuance


*NOTES

Audit of LSC’s $2 Million Landlord Contribution. The audit found that LSC may have paid $203,240
for some leasehold improvements from LSC funds rather than charging the improvements against the
$2 million landlord contribution. On September 28, 2005, LSC management provided the OIG with
management actions taken and requested that the significant recommendations be closed. LSC
management actions indicated that LSC was unaware of any payments made by LSC that should have
been paid using the leasehold improvement funds. As of the end of the reporting period, the OIG was
evaluating LSC management actions and will keep the significant recommendations open until the
analysis is complete.

Audit of LSC’s Office Space Needs. LSC management generally agreed to implement the
recommendations and will provide the amount of savings, if any, it believes is appropriate when
management actions are complete. The amount of funds put to better use was calculated by multiplying
the number of years remaining on the LSC lease at the time the report was issued (7.67 years) times the
potential overpayment per year ($748,000), minus the amount of income LSC will receive from a 5-year
sublease ($300,000). This calculation resulted in an estimate of $5,437,160 of funds that potentially
could be put to better use.




                                                  19
                                                                        April 1, 2005 – September 30, 2005



                                              TABLE III
                                  Index to Reporting Requirements
                                      of the Inspector General


     IG ACT
   REFERENCE*                                 REPORTING REQUIREMENT                               PAGE

Section 4(a)(2)        Review of legislation and regulations                                        13

Section 5(a)(1)        Significant problems, abuses, and deficiencies                             None

Section 5(a)(2)        Recommendations with respect to significant problems, abuses,              None
                       and deficiencies

Section 5(a)(3)        Prior significant recommendations on which corrective action               None
                       has not been completed

Section 5(a)(4)        Matters referred to prosecutive authorities                                10-12

Section 5(a)(5)        Summary of instances where information was refused                         None

Section 5(a)(6)        List of audit reports by subject matter, showing dollar value of           17-19
                       questioned costs (including a separate category for the dollar value
                       of unsupported costs) and funds to be put to better use

Section 5(a)(7)        Summary of each particularly significant report                            None

Section 5(a)(8)        Statistical table showing number of audit reports and dollar value           18
                       of questioned costs

Section 5(a)(9)        Statistical table showing number of reports and dollar value of              19
                       recommendations that funds be put to better use

Section 5(a)(10)       Summary of each audit issued before this reporting period for              None
                       which no management decision was made by the end of the
                       reporting period

Section 5(a)(11)       Significant revised management decisions                                   None

Section 5(a)(12)       Significant management decisions with which the Inspector General          None
                       disagrees

*Refers to sections in the Inspector General Act of 1978, as amended.




                                                    20
           INSPECTOR GENERAL HOTLINE
          To report suspected fraud, waste or abuse:
                Call:    1 800 678 8868 or
                          1 202 295 1670
         Or write:         PO Box 3699
                        Washington DC 20027
       You can request that your identity be protected.

LSC employees are protected from reprisals by the Corporation.
Office of Inspector General
Legal Services Corporation
                    rd
3333 K Street, NW, 3 Floor
  Washington, DC 20007
 LEGAL SERVICES CORPORATION




    REPORT TO THE CONGRESS

 FROM THE BOARD OF DIRECTORS

         FOR THE PERIOD

APRIL 1, 2005 – SEPTEMBER 30, 2005
                                                  INTRODUCTION

        The Board is pleased to have the opportunity to address the Congress and share its
perspective on the current state of federally-funded civil legal services for low-income
Americans. In keeping with the Board’s previous observations that the United States is far from
reaching its goal of “justice for all,” during the reporting period LSC completed its analysis of
the “justice gap” in America, which evidenced a great disparity between the number of poor
persons who need legal assistance and the number who receive such help. LSC’s study of unmet
civil legal needs, which employed three different methodologies to measure such needs,
concluded that only fifty percent of eligible applicants who seek civil legal assistance from LSC
grantees* receive such help as a result of the lack of resources. Additionally, the study suggested
that the percentage of legal problems for which poor persons do not receive assistance may be
greater than 80%, considering that many poor people are unaware of programs for free legal
services and do not apply for such help. In October 2005, LSC published a report on its study of
the unmet civil legal needs of the poor, entitled Documenting the Justice Gap in America.

        In September 2005, LSC mobilized its resources to provide maximum support to its
grantees affected by Hurricane Katrina, and to the indigent communities served by those
grantees. In addition to convening regular conference calls with affected grantees and providing
formal guidance on assistance to hurricane victims, LSC -- in partnership with the American Bar
Association, the National Legal Aid and Defender Association, and Pro Bono Net -- launched the
“Katrina Legal Aid Resource Center,” a web-based clearinghouse for hurricane victims and their
advocates. LSC continues to work with programs affected by the season’s hurricanes to assist
the client communities in the Gulf Coast region to rebuild their lives.

        During the reporting period, LSC continued work on important initiatives to improve the
quality and accessibility of services for low-income persons. LSC launched its Pilot Loan
Repayment Assistance Program during the reporting period, which strives to enhance the ability
of grantees to recruit and retain high-quality lawyers who have substantial law school debt.
Similarly, LSC began its pilot leadership mentoring program during the reporting period, which
seeks to develop a diverse and well-trained corps of future leaders in the legal services
community. Other significant projects include continued efforts to improve services to eligible
clients in rural communities; attempts to better define quality in the operation of legal services
programs; and the continued use of technology to expand services to low-income persons. In
addition to these special initiatives, LSC continued during the reporting period to monitor its
grantees to ensure compliance with all Congressionally-mandated rules and restrictions.

The Legal Services Corporation
        The Legal Services Corporation is a private, non-profit corporation established in the
District of Columbia by the Legal Services Corporation Act of 1974, as amended (“the LSC
Act”),† to provide financial support for legal assistance in civil proceedings to persons unable to

*
  “Grantees,” “programs” and “recipients” are used interchangeably in this report to refer to recipients of LSC
funding.
†
  42 U.S.C. §§ 2996-2996l.


                                                         23
afford legal services. LSC is governed by an eleven-member, bi-partisan Board of Directors
appointed by the President of the United States with the advice and consent of the Senate. The
Board appoints LSC’s President, who serves as LSC’s chief executive officer, subject to general
policies established by the Board.

       The 1988 Amendments to the Inspector General Act of 1978 (“the 1978 Act”) required
LSC to establish an Office of Inspector General (“OIG”) and extended specific provisions of the
1978 Act to LSC. Accordingly, such an office was established by and for LSC. The Inspector
General is appointed by, reports to, and serves under the general supervision of, LSC’s Board of
Directors.

        LSC provides funding to civil legal services programs serving indigent persons
throughout the fifty states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands, Guam,
Micronesia and American Samoa. To carry out the purposes of the LSC Act, LSC received an
appropriation of $330,803,705 for Fiscal Year (“FY”) 2005. For FY 2006, LSC submitted a
budget request for $363,809,000. Most of the requested increase would be used to provide
additional funding to LSC’s basic field programs and would bring LSC’s appropriation in line
with inflationary increases over the past three years. The increase would position LSC’s 140
grantees to respond to the rising numbers of low-income Americans eligible for federally funded
legal assistance. From 1981 -- the highwater mark of LSC appropriations after adjusting to
inflation -- to 2004, the poverty population eligible for legal services increased by 13.5% to
49,666,000. However, LSC’s appropriations have not kept pace with this increase in the eligible
client population.

       During the reporting period, the House of Representatives voted for an FY 2006
appropriation equal to the FY 2005 level, while the Senate voted to increase LSC’s funding to
$358.5 million, nearly the amount requested by the Board. After the reporting period ended, the
House-Senate conference committee decided to fund LSC at roughly the House approved and
FY 2005 level.




                                               24
                                        LSC INITIATIVES

        During this reporting period, LSC continued its efforts to improve the efficiency of its
competitive grant award system and the effectiveness of the delivery of legal assistance to
eligible clients. LSC continued to demonstrate its ability to ensure both compliance with
program rules and regulations, and the maintenance of high quality legal assistance to eligible
clients in conformity with Congressional mandates.

Competition
        LSC received and evaluated thirty-six grant applications for service areas in twenty-two
states, American Samoa, the District of Columbia, Guam, Micronesia, and the Virgin Islands for
calendar year 2006 grants, in response to a comprehensive and detailed Request for Proposals
(“RFP”).

       All grant applications are evaluated based on the requirements of LSC’s RFP, the LSC’s
Performance Criteria, the American Bar Association’s Standards for the Providers of Civil Legal
Services to the Poor, and LSC’s regulations. LSC funding decisions for calendar year 2006 will
be announced in the month of December.

       In addition to staff evaluation of the grant applications, LSC provides all successful grant
applicants with “feedback letters,” which assess the strengths and weaknesses of applicants’
proposed delivery strategies based on their grant applications. The feedback letters are intended
to improve program performance and the quality of future grant applications.

        LSC’s competitive grants process remains responsive to the Congressional requirement to
award grants through a system of competition, and to assure the most efficient and effective
delivery of services to eligible, low-income people. An overview of the competitive grants
process, the RFP, application instructions and resource materials are available from the LSC
bulletin board at www.ain.lsc.gov.

Program Visits to Assess Quality and Compliance
        During the reporting period, LSC continued visiting programs to assess quality; ensure
compliance with applicable statutes and regulations; provide technical assistance; review
progress in achieving a comprehensive delivery system in reconfigured service areas; address
problems; evaluate innovative procedures which may serve as models for other programs; and
communicate LSC’s expectations directly to grantees. These visits expand LSC’s understanding
of programs’ activities otherwise gleaned from competition applications, grant activity reports,
and anecdotal information. They also enable LSC to provide technical assistance to help
programs enhance the quality of services delivered to clients and promote efficiency and
effectiveness in delivery systems.

      LSC conscientiously follows up on program visits that it has made in the past. Typically,
LSC staff has periodic communications with programs to check on progress with planned



                                                25
changes. Additionally, after program visits, LSC often provides programs with materials
describing “best practices” and innovative strategies to assist in improving the effectiveness of
their delivery systems.

       From April 1, 2005, through September 30, 2005, staff from LSC’s Office of Program
Performance (“OPP”) visited seven programs. These visits are in addition to the four visits
conducted jointly with LSC’s Office of Compliance and Enforcement that are discussed below.

        When LSC examines program quality, it reviews program operations in areas that include
the establishment of priorities, intake systems, legal work management and supervision,
governance, Private Attorney Involvement (“PAI”), resource development, and strategic
planning, in order to evaluate comprehensively the efficiency and effectiveness of programs.
Post-reconfiguration on-site reviews, which typically occur two years following the
reconfiguration of a service area, involve an assessment of the grantee’s progress in creating an
efficient and effective integrated program that strives to provide high quality legal assistance.
Following a program visit, it is customary for LSC staff to prepare and send a report to the
program detailing staff’s findings and recommendations.

       From April 1, 2005, through September 30, 2005, LSC’s Office of Compliance and
Enforcement (“OCE”) made visits to five programs for the purpose of assessing general
compliance with all LSC rules and regulations, and to assess Case Service Reporting (“CSR”)
and Case Management Systems (“CMS”) in particular. After making CSR/CSM visits to
programs, OCE sends reports of its findings to the programs. One such report was sent during
the reporting period, and four others are being completed.

       During the reporting period, OCE also visited four programs to follow-up on previous
CSR/CMS visits. LSC is preparing reports on each of these follow-up visits to send to the
programs.

      OCE provided accountability training on CSR and LSC regulations to seven programs.
During the reporting period, OCE provided one training session on compliance with CSR and
LSC regulations to a new Executive Director.

        OCE conducted a technical assistance review and accountability training for two
programs during the reporting period. LSC sent a report of its findings to one program, and it
will soon send a follow-up report to the other program.

        In late 2004, LSC launched pilot program joint visits to coordinate more effectively the
work of OPP and OCE and to provide a more comprehensive review of the visited programs.
LSC staff from OPP and OCE developed a new visit protocol that is an on-site examination of
program quality and compliance, case management reporting, and case management system
issues. The purposes of the new visit protocol are 1) to minimize the number of visits to LSC
grantees through a more efficient process; 2) to bring to bear the perspectives and experiences of
both offices in the performance of LSC’s core functions in evaluating compliance and quality;
and 3) to identify and incorporate new areas of inquiry that represent indicia of quality in legal




                                               26
services delivery. During the reporting period, OPP and OCE made four joint visits and the pilot
project continues to be evaluated.

Quality Initiative
        The Legal Services Corporation Act requires LSC to ensure that the programs it funds are
of the highest quality and meet professional standards. In seeking to ensure quality among its
grantees, LSC must determine the appropriate indicators of quality, how to measure these
indicators of quality, and the role of a national funder in ensuring that its grantees provide -- and
clients receive -- quality legal services. LSC is currently working on several projects designed to
identify, further define and measure quality in these contexts.

         An initial component of LSC’s Quality Initiative is the revision of the LSC Performance
Criteria, which were originally written in 1993. This revision is expected to be completed by the
end of the year. The LSC Performance Criteria (“the Criteria”) provide a framework upon which
LSC grantees model their services. LSC uses the Criteria in every aspect of its quality review
work, including the application information it seeks in its Request for Proposals; the guidelines it
uses to evaluate grant applications; the standards it uses to make funding decisions; and the
criteria it uses to evaluate programs through on-site visits.

       LSC’s Quality Initiative also involves work with a task force of the ABA’s Standing
Committee on Legal Aid and Indigent Defenders that is updating and revising the ABA
Standards for Providers of Civil Legal Services to the Poor.

       During 2004, LSC convened the first of several “conversations” with legal services
community leaders to facilitate the development of the quality agenda. The conversation
provided useful ideas on the role that LSC should play in enhancing program quality and
performance. During this reporting period, an additional conversation on quality was held in
New York City. Legal services program leaders from the Mid-Atlantic region attended the
meeting. A conversation with legal services community leaders from the southern states had to
be postponed due to Hurricane Katrina. It will be rescheduled for a later date.

Documenting the Justice Gap
        LSC’s study on the unmet civil legal needs of low income Americans, introduced in the
last report to Congress, was completed during this period and was released to the public on
October 17, 2005. The study used three different methodologies to examine this issue. First,
LSC asked its grantees over a two-month period, from March 14, 2005, to May 13, 2005, to
document the potential clients that came to their offices that the programs could not serve due to
lack of resources. Second, LSC carefully analyzed the nine studies undertaken over the last five
years in individual states about the civil legal problems faced by their low-income residents,
examining the studies for nationally applicable conclusions, as well as comparing the results to
the 1994 American Bar Association national study on the subject. Finally, LSC totaled the
number of legal aid lawyers – those in both LSC and non-LSC funded programs – and compared
that figure to the total number of attorneys providing civil legal assistance to the general
population in this country.


                                                 27
        All three methodologies demonstrated that there was a significant shortage of civil legal
assistance available to low-income Americans. The LSC “Unable to Serve” study, the first
methodology discussed above and the first comprehensive national statistical study ever
undertaken, established that for every client who receives service, one applicant was turned
away. This indicates that 50 percent of the potential clients requesting assistance from LSC
grantees were turned away for lack of resources on the part of the programs. The study
underestimated the unmet need, because it is known that many people do not contact programs
either because they do not know they have legal problems, or they do not know that LSC
grantees can help them.

         The two other methodologies suggested higher unmet needs. The nine recent state
studies demonstrated that less than 20 percent of the legal needs of low-income Americans were
being met. Eight of the nine studies found unmet legal needs to be greater than the 80 percent
figure determined by the ABA in its 1994 national survey. The final methodology compared the
ratio of low income persons to the number of legal aid attorneys, with the ratio of all persons to
all civil attorneys available to assist them. The ratio of attorneys delivering civil legal assistance
to the general population is thirteen times more.

       In summary, the justice gap -- i.e., the disparity between the civil legal needs of low-
income people and the legal help they receive -- is significant and large. LSC-funded programs
were only able to assist fifty percent of the people with eligible cases who applied for assistance.
The legal needs surveys indicate that an even larger percentage of low income persons (i.e.,
80%) do not obtain assistance, either because it is not available to them, they do not know that
they can ask for it, or they do not know how to ask for it.

Technology Efforts
        A major component of LSC’s technology efforts is the administration of the
congressionally-funded Technology Initiative Grants program (“TIG”), and the awarding of
grants under this program. The TIG program awards grants for the use of technology to help
grantees provide assistance to low income persons who would otherwise not receive legal
assistance. This is accomplished by means of technologically enhanced pro se and community
legal education efforts and by enhancing state justice systems’ technology infrastructures to
support centralized telephone intake and delivery systems.

       During the reporting period, LSC received and reviewed 52 letters of intent and,
subsequently, 38 applications. In 2005, TIG will award 28 grants totaling $1,374,500.

       The following are updates on TIG projects described in previous reports:

       •   The I-CAN!™ Earned Income Tax Credit (“EITC”) project is preparing for another
           tax season. This project, which allows low-income tax payers to file their own tax
           returns and receive earned income tax credit payments, is available nationwide for
           federal income tax returns. Last year this project returned over $3,200,000 in earned
           income tax credit to low-wage workers in 44 states. The I-CAN!™ project began as a


                                                 28
           series of kiosks that enabled pro se applicants to file a wide range of answers and
           complaints with courts in Orange County, California. The project has since expanded
           to courts in several other states. TIG-funded I-CAN!™ projects in Colorado,
           Massachusetts, and New York are being developed. The kiosks in Colorado have
           been installed, and the New York project is forming a promising partnership with the
           New York City Civil Courts.
       •   The National HotDocs® Project -- a project enabling the generation of automated
           forms over the internet -- is gaining momentum. When the HotDocs® software is
           installed on a website or kiosk, the software guides applicants through a series of
           questions that enables applicants to file their own court documents. With the
           assistance of a donation from LexisNexis®, TIG previously funded a national server
           to host automated documents using the HotDocs® Online Server. The server
           currently hosts online forms created by 25 states, and it has enabled the completion of
           12,728 documents.
       •   The TIG program continues to work with LSC’s national partners to update and
           refine the National Index used to classify materials on the web. The use of this index
           enables the sharing of information among grantees in different states.


        In addition to implementing the 2005 competition process and overseeing existing
grants, LSC TIG staff has continued to work on evaluation of grants and on training designed to
spread the effective use of the technologies developed.

       Evaluation systems for the client, advocate and pro bono websites are now operational.
They include evaluation instruments and online reporting systems. In developing these systems,
LSC built on the work accomplished through the TIG-funded Technology Evaluation Project and
incorporated significant input from TIG grantees and other stakeholders. LSC is adding
additional components to these systems to obtain more comprehensive data about websites’
operations and impacts. Databases are in place to help compile and analyze evaluation results
and to produce reports summarizing and profiling key findings. Key elements of the website
evaluation systems can be reviewed at: http://www.lri.lsc.gov/sitepages/tech/tech_eval_tig.htm.

        LSC continues to be pleased with the TIG program’s progress in creating infrastructure
that permits income-eligible clients to receive advice and brief services through centralized
intake systems and legal education materials on websites. TIG grants also have the potential to
enable LSC-funded programs to enhance productivity through the use of technologically
sophisticated infrastructures. By carefully monitoring the TIG grants and overseeing project
evaluations, LSC is assessing the extent to which technological approaches can increase the
amount and quality of services to eligible clients.

Pilot Loan Repayment Assistance Program
       The burden of law school debt, which now averages $80,000 per new law school
graduate, prevents many recent graduates from considering a career in legal services, where the
average starting salary nationally is $37,000 a year.



                                               29
        LSC’s FY 2005 appropriation contained a provision “to allow LSC to spend up to
$1,000,000 from a carryover fund balance for a law school student loan repayment pilot program
in fiscal year 2005.” LSC will provide loans of up to $5,000 a year over a three- year period to
attorneys working in selected programs who have an annual law school debt repayment
obligation of at least $2,400. These attorneys must have annual incomes of no more than
$45,000 and a total net worth of no more than $35,000. LSC will be evaluating the pilot
program to see what impact it has on recruitment and retention of attorneys.

       LSC launched the pilot LRAP program during this reporting period with the solicitation
of applications from grantees. Sixty-two grantees expressed an interest in participating in the
LSC Pilot LRAP.

        In October 2005, just beyond the reporting period, LSC announced its selection of fifteen
grantees that have attorneys or are recruiting attorneys who meet the pilot program’s eligibility
criteria and who may apply for LSC Pilot LRAP assistance. LSC plans to provide LRAP
assistance to at least sixty-seven attorneys working with these selected programs.

Leadership Mentoring Project
        Since June 2004, in response to direction from the Board of Directors, LSC has worked
diligently to address the growing need to develop a future corps of diverse leaders in the legal
services community. Toward this end, LSC developed the Leadership Mentoring Pilot Program,
an 18-month program to create effective mentoring relationships and leadership training. An
objective of this program is to identify the elements of a mentoring program that are most likely
to produce a diverse corps of future leaders for LSC programs. LSC officially launched the Pilot
Program in August 2005 by making applications available to potential mentors and protégés.

        The Pilot Program will help LSC gather information needed to develop a model
leadership mentoring program that may be used by grantees. It will also help to identify core
competencies required to be an effective leader in a legal services program. Finally, it will
identify challenges to developing diverse leadership and seek strategies to overcome those
challenges. LSC will conduct ongoing evaluations of the Pilot Program.

Centralized Telephone Brief Advice and Referral Intake Systems

       During the reporting period, LSC continued efforts to promote the use of coordinated
telephone intake, advice and referral systems used by its grantees. These delivery systems
maximize client access and improve the quality of legal services by increasing efficiencies in
program operations and management, simplifying application procedures, expediting responses
to applicants, and allowing experienced staff to concentrate on legal problems requiring
extensive representation.




                                               30
LSC Resource Initiative
        LSC continues to promote high quality legal assistance by sharing best practices in the
legal services community and encouraging replication when appropriate. To further this goal,
the Office of Program Performance (“OPP”) oversees the LSC Resource Initiative (“LRI”), a
project that has successfully gathered information about innovative legal services management
approaches and delivery techniques and systems since its inception in June 2001. The
accompanying website, the LSC Resource Library, has been online since October 2002, and can
be viewed at http://www.lri.lsc.gov.

        Noteworthy practices of many LSC-funded recipients are featured on the website. Some
of the topics featured on the website include technology, diversity, intake, management practices,
and loan repayment assistance. To avoid duplication, the website links to several other websites
and existing sources of information. The website also includes announcements and training
opportunities available to the staff of legal services programs.

        During the reporting period, the provision of disaster relief materials to grantees was a
high priority for LSC. As a result of recent hurricanes, many programs used and forwarded
disaster relief information that is currently featured on the LRI website.

Rural Initiative
         LSC has maintained its role as a national leader in the analysis of rural delivery issues
and in the promotion of rural legal services. With the support of the National Legal Aid and
Defender Association (“NLADA”), in May of 2005, LSC sponsored a half-day symposium on
rural service delivery at the Equal Justice Conference in Austin, Texas. It was attended by 75-80
rural providers and interested stakeholders such as state court judges and Interest on Lawyers
Trust Account (“IOLTA”) providers. The conference explored effective strategies for the
delivery of services in rural areas. Panels focused on: 1) recruitment and retention of high
quality, diverse advocates; 2) building programs’ substantive capacities in areas such as
economic development, employment law, consumer issues, affordable housing, and complex
litigation; 3) resource development; and 4) building community partnerships.

Response to Hurricane Katrina

       On August 29, 2005, Katrina hit the Central Gulf Coast, near New Orleans, Louisiana, as
a Category 4 hurricane. Most of New Orleans subsequently flooded when the levee system was
breached. This and other major damage to the costal regions of Louisiana, Mississippi and
Alabama made Katrina the most destructive and costliest national disaster in the history of the
United States. Over 1,300 people died, over a million people were displaced, and damage is
estimated to cost between $70 and $150 billion.
      Once LSC became aware of the devastation caused by Hurricane Katrina, it closely
monitored the extent of the damage to its grantees and to the clients served by those programs.




                                               31
Louisiana, Mississippi and Alabama already had significant poverty populations,‡ and the
hurricane’s devastation significantly increased the number of persons in need of legal assistance.
On September 1, 2005, LSC conducted a conference call with the Executive Directors of its
grantees in the Gulf Coast region affected by Hurricane Katrina, as well as several Executive
Directors from surrounding states and other national partners. LSC began working closely with
the affected programs in the states of Alabama, Florida, Louisiana, and Mississippi to provide all
necessary assistance to ensure the continued provision of legal services to client communities.
Many members of these communities were displaced by the hurricane and are relocating to the
neighboring states of Georgia, Tennessee and Texas. LSC also worked with the private bar, the
federal government, the courts, Interest on Lawyers Trust Account (“IOLTA”) providers, other
providers of services, the ABA and NLADA to coordinate the assistance needed to provide
services in this crisis.
        On September 9, 2005, LSC issued guidance to its programs on responding to the
increased need for services following Hurricane Katrina. This guidance reminded programs that
LSC regulations and reporting requirements allow them some flexibility to represent clients in
emergency situations. The flexibility allowed under LSC regulations in emergency situations
will allow programs to provide legal assistance to the greatest number of evacuees and other
affected persons as is possible.
       During the week of September 19, 2005, LSC’s President and Vice President for
Programs and Compliance visited LSC programs in Alabama, Mississippi and Louisiana, which
were directly affected by Hurricane Katrina. This visit allowed LSC to witness firsthand the
needs of the programs and the issues they are facing, and to offer LSC’s support.
       On September 26, 2005, LSC, in partnership with the ABA, NLADA and Pro Bono Net,
launched “Katrina Legal Aid Resource Center,” a web-based clearinghouse of legal aid, pro
bono and public defender information for persons affected by the hurricane and the lawyers and
advocates assisting them. The website is located at www.katrinalegalaid.org.
       LSC and its partners continue working tirelessly to ensure that those impacted by
Hurricanes Katrina, Rita and Wilma, and the lawyers and advocates supporting them, have the
resources they need to rebuild their lives. LSC continues to participate in weekly conference
calls with programs affected by the hurricanes and with other organizations providing support
services to the affected programs. These calls are intended to facilitate the exchange of helpful
information and improve support services.

Rulemaking Activities

         During this reporting period, LSC concluded the rulemaking on its regulation on financial
eligibility, appearing at 45 C.F.R. Part 1611. LSC published a Notice of Proposed Rulemaking
on May 24, 2005. Following a 30-day public comment period, the LSC Operations and
Regulations Committee (“the Committee”) of the Board of Directors considered a Draft Final
rule prepared by staff, addressing the comments received in response to the proposed rule. Upon
the recommendation of the Committee, the Board of Directors adopted a Final rule, which was

‡
    Louisiana’s poverty rate was 22%, Mississippi’s was 23% and Alabama’s was 20%.


                                                       32
published in the Federal Register on August 8, 2005. The new rule became effective on
September 7, 2005.

         During the reporting period LSC also undertook consideration of a petition for
rulemaking received from a citizen requesting that LSC initiate a rulemaking to consider changes
to its regulation on limitations on class action lawsuits. LSC conducted a factual inquiry into the
involvement of LSC grantees with non-adversarial post-order activities in class action lawsuits in
which the grantee had been counsel of record prior to the implementation of the prohibition on
participation in class actions. The Board was briefed on the results of the inquiry and took
formal action denying the petition.

Additional Office of Compliance and Enforcement Activities
        In addition to program visits and accountability training to ensure compliance, LSC’s
Office of Compliance and Enforcement (“OCE”) is charged with a number of functions which
ensure that recipients are in compliance with the LSC Act and Regulations. These obligations
currently include complaint investigations, prior approvals of some expenditures of LSC funds
by grantees and activities by grantees, on-site visits to examine compliance with regulations, and
the provision of technical assistance and training to recipients.

A-50 Follow-Up

       During the reporting period, no findings were referred for A-50 follow-up.

Prior Approval Under 45 CFR Part 1630

       During the reporting period, OCE approved eight requests totaling approximately
$384,270 to lease or purchase personal/non-expendable property, two requests totaling $875,000
to renovate real property and one request totaling $2,275,000 to purchase real property pursuant
to 45 CFR Part 1630.

Private Attorney Involvement Under 45 CFR Part 1614

        LSC’s Private Attorney Involvement (“PAI”) regulation, 45 CFR Part 1614, requires that
all recipients devote an amount equal to at least 12.5% of their respective Basic Field Grants to
involve private attorneys in the delivery of legal assistance to eligible clients. A provision of this
regulation, 45 CFR § 1614.6, allows recipients to request either a partial or complete waiver of
this requirement in circumstances in which they have been unable to meet the obligation during a
given year. If a recipient’s circumstances warrant a waiver, OCE will either waive the
requirement and adjust the requirement for that year by the amount of the shortfall, or increase
the next year’s requirement by the amount of the shortfall.

      During the reporting period, OCE granted five partial waivers, one complete waiver, and
one administrative waiver.




                                                 33
       Follow-up on PAI compliance is conducted and, if necessary, the PAI program is
reviewed as part of the Case Service Reporting/Case Management Systems review.

Subgrants Under 45 CFR Part 1627

        Pursuant to 45 CFR § 1627.1, a recipient may subgrant a portion of its LSC funding to
another entity to conduct certain activities related to the recipient’s programmatic activities.
Such activities include those that would otherwise be undertaken by the recipient itself, such as
representation of eligible clients, or activities which provide direct support to a recipient’s legal
assistance activities, such as a PAI component.

       OCE approved four recipient subgrants for a total amount of $57,000 during the noted
time period. Additionally, three subgrant modifications were requested under 45 CFR §
1627.3(b)(3), totaling $16,000.

Fund Balances Under 45 CFR Part 1628

        LSC recipients whose annual audits report fund balances in excess of ten percent of their
total LSC annualized support, are required to request a waiver from LSC pursuant to 45 CFR §
1628.4, in order to carry over the excess balance to the following year. Recipients may request a
waiver to retain fund balances in excess of 25% of LSC support only for extraordinary and
compelling reasons. In the absence of a waiver, LSC is required to recover the excess fund
balance pursuant to 45 CFR § 1628.3.

       During the reporting period, OCE granted five fund balance waiver requests totaling
$691,291. When OCE grants a fund balance waiver, it informs the relevant program that the
excess fund balance should be reported separately in the recipient’s next audit, either as a
separate fund or by a supplemental schedule in the audit report. The separate reporting is by line
item expense to show exactly how the excess fund balance was spent. OCE ensures that the
excess fund balance is reported appropriately through its review of the recipient’s annual audit.

Complaint Investigations

       OCE is responsible for the review, investigation and disposition of complaints filed by
members of the public (e.g., applicants, clients, local recipients, staff and Board members,
opposing counsel/parties, and taxpayers) related to the activities of LSC recipients.

       During the reporting period, 35 such complaints were closed. The majority of the
complaints closed during the reporting period involved denial of services i.e., complaints from
applicants who were financially ineligible, outside of program priorities, or requesting assistance
with fee-generating cases or other cases prohibited by Congressional restrictions.

Audit Reports

       The fiscal year cycle adhered to by LSC grantees differs from program to program.
While the majority of grantees operate on the fiscal year cycle that ends on December 31st of



                                                 34
each year, others adhere to cycles that end on January 31st, March 31st, May 31st, June 30th, or
September 30th respectively. LSC grantees must submit their audit reports (including audited
financial statements) to LSC’s OIG within 120 days of the end of their respective fiscal years.

       The OIG ensures that all grantees submit their audit reports to LSC in a timely fashion.
OCE then reviews the audited financial statements for compliance with the Accounting Guide
for LSC Recipients (issued in August 1997) and LSC’s finance-related regulations, 45 CFR Parts
1610, 1614, 1627, 1628, 1630, 1631, and 1642.

      After the OIG reviews and processes grantees’ audit reports in its audit tracking system
(“AIMS”), a copy of each grantee’s audit report is sent to OCE. During the reporting period,
OCE reviewed seventy-two audit reports forwarded to it by the OIG.

Disaster Relief

        LSC, on occasion, obtains special funding to meet the emergency needs of programs in
federally-declared disaster areas. In accordance with the instructions in Federal Register Volume
69, No. 61, March 2004, LSC grant recipients who have experienced needs due to a disaster may
apply for disaster relief funding.

        During the noted period, LSC distributed a total of $100,450 in disaster relief funds to
two LSC recipients affected by Hurricane Katrina. Three additional requests for disaster relief
grants have been received and are pending review.




                                               35
                                           Appendix
                                           TABLE 1

                                   Management Report on
                   Office of Inspector General Audit Reports of Grantees
                                Issued With Questioned Costs
                                  For the Six Month Period
                                 Ending September 30, 2005

                                                      Number of            Disallowed
                                                       Reports               Costs
A. Audit Reports for which final action had not
   been taken by the commencement of the                   0                  $0
   reporting period.

B. Audit Reports on which management
   decisions were made during the reporting                0                  $0
   period.

   Subtotals (A + B)                                       0                  $0

MINUS:

C. Audit Reports for which final action was
   taken during the reporting period:                      0                  $0

      (i)    Dollar value of disallowed costs
             that were recovered by management
             through collection, offset, property
             in lieu of cash, or otherwise.                0                  $0

      (ii)   Dollar value of disallowed costs
             that were written by management.              0                  $0

D. Audit Reports for which no final action has
   been taken by the end of the reporting period.          0                  $0

   Audit Reports for which no final action had
   been taken within six months of issuance                0                  $0




Appendix                                         36
                                                                TABLE 2

                              Management Report on Audit Reports Issued During
                               The Six Month Period Ending September 30, 2005,
                     With Recommendations That Funds Be Put to Better Use By Management
                                     Agreed to in a Management Decision

                                                                                                            Number of           Dollar
                                                                                                             Reports            Value
A. Audit Reports for which final action had not been taken by the commencement
   of the reporting period.                                                                                        0              $0
B. Audit Reports on which management decisions were made during the reporting
   period.                                                                                                        2*          $203,240
   Subtotals (A + B)                                                                                              2           $203,240
MINUS:
C. Audit Reports for which final action was taken during the reporting period:                                     1          $203,240

   (i)        Dollar value of recommendations that were actually completed.                                        0           $29,367

   (ii)       Dollar value of recommendations that management has subsequently                                     0          $173,873
              concluded should not or could not be implemented or completed.
D. Audit Reports for which no final action has been taken by the end of the
   reporting period.                                                                                               1              $0
  Audit Reports for which no final action had been taken within six months of
  issuance.                                                                                                        0              $0




          *
           On Table II of its SAR, the OIG references an audit finding that LSC “may have paid” $203,240 for leasehold
          improvements from LSC funds rather than charging the improvements against an up to $2 million landlord
          contribution. Of the $203,240 identified by the OIG, $29,367 were funds paid for by the landlord and $5,616 was
          for late wiring plan changes insisted upon by LSC. The remaining $168,257 was actually paid by the OIG for its
          own office suite in order to control the build out of its space and to obtain amenities not available to the rest of LSC.

          While the OIG notes in its SAR its belief that LSC may be using an excess amount of space, it made no finding that
          LSC actually has excess space. On page 4 of its report, the OIG states that “until a space study has been completed
          to determine actual space needs, the actual amount of overpayment, if any, cannot be determined.” Nonetheless, the
          OIG listed $5,437,160 on Table II of its SAR as “Funds to Be Put to Better Use” in connection with the allegation of
          excess space use. LSC disagrees with this designation and is undertaking a study to assess space needs.


          Appendix                                                   37
